<html>
<title> - ENFORCEMENT OF FEDERAL CRIMINAL LAW TO PROTECT AMERICANS WORKING FOR U.S. CONTRACTORS IN IRAQ</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 ENFORCEMENT OF FEDERAL CRIMINAL LAW TO PROTECT AMERICANS WORKING FOR 
                        U.S. CONTRACTORS IN IRAQ

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 19, 2007

                               __________

                           Serial No. 110-130

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
39-700 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

MAXINE WATERS, California            LOUIE GOHMERT, Texas
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
ARTUR DAVIS, Alabama                 DANIEL E. LUNGREN, California
TAMMY BALDWIN, Wisconsin
BETTY SUTTON, Ohio

                      Bobby Vassar, Chief Counsel

                    Michael Volkov, Minority Counsel


                            C O N T E N T S

                              ----------                              

                           DECEMBER 19, 2007

                                                                   Page

                           OPENING STATEMENT

The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................    21
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................    22
The Honorable Hank Johnson, a Representative in Congress from the 
  State of Georgia, and Member, Subcommittee on Crime, Terrorism, 
  and Homeland Security..........................................    23
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................    24
The Honorable Tammy Baldwin, a Representative in Congress from 
  the State of Ohio, and Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................    26
The Honorable Anthony D. Weiner, a Representative in Congress 
  from the State of New York, and Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................    26

                               WITNESSES

The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas
  Oral Testimony.................................................    30
  Prepared Statement.............................................    31
Ms. Jamie Leigh Jones, former employee of Kellogg Brown and Root 
  (KBR), Houston, TX
  Oral Testimony.................................................    32
  Prepared Statement.............................................    35
Mr. Scott Horton, Adjunct Professor of Law, Columbia University 
  School of Law, New York, NY
  Oral Testimony.................................................    50
  Prepared Statement.............................................    51

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of Tracy Barker...............................     3
Prepared Statement of the Honorable Linda T. Sanchez, a 
  Representative in Congress from the State of California, and 
  Chairwoman, Subcommittee on Commercial and Administrative Law..    28

                                APPENDIX

Material Submitted for the Hearing Record........................    73


 ENFORCEMENT OF FEDERAL CRIMINAL LAW TO PROTECT AMERICANS WORKING FOR 
                        U.S. CONTRACTORS IN IRAQ

                              ----------                              


                      WEDNESDAY, DECEMBER 19, 2007

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:23 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Conyers, Scott, Johnson, Weiner, 
Jackson Lee, Davis, Baldwin, Gohmert, Coble, Chabot, and 
Lungren.
    Staff present: Bobby Vassar, Subcommittee Chief Counsel; 
Ameer Gopalani, Majority Counsel; Mario Dispenza, (Fellow) ATF 
Detailee; Veronica Eligan, Majority Professional Staff Member; 
Michael Volkov, Minority Counsel; Caroline Lynch, Minority 
Counsel; Kelsey Whitlock, Minority Staff Assistant.
    Mr. Scott. The Subcommittee will come to order. Welcome to 
the Subcommittee on Crime, Terrorism, and Homeland Security 
hearing on Enforcement of Federal Criminal Law to Protect 
Americans Working for U.S. Contractors in Iraq.
    Ladies and gentlemen, we have a situation in which many 
military contractors are acting with impunity and disregard for 
the law.
    In Iraq, our troops have been supplanted in many respects 
by an army of contractors that is estimated to be approximately 
180,000.
    This is in stark contrast to the normal number of 
contractors, which is 2 percent, 3 percent, 4 percent, 5 
percent of the troop force. Fifty percent of the Americans over 
in Iraq right now are contractors. About 50 percent are formal 
military troops.
    Unfortunately, the law governing the contractors has been 
unclear. In September, we learned of a shooting incident 
involving a private contracting company in which contractors 
allegedly shot and killed 11 or more innocent Iraqi civilians.
    We learned of hundreds of other shooting incidents that, 
unlike the other one, did not receive media attention and have 
remained dormant.
    Sexual assault and rape incidents have also been uncovered 
recently. Just last week we learned of the case of Jamie Leigh 
Jones, who, while working for an apparently prestigious and 
reputable contracting firm, states that she was drugged and 
raped by fellow employees in a company facility in Baghdad.
    Without her courage to go forward, it is likely that this 
would have been another story which would have gone without 
prosecution or investigation.
    And her story has encouraged other women to come forward. 
We are now aware of at least three other cases of such abuse, 
but there are likely many more.
    One of those cases is Tracy Barker, whose statement, if 
there is no objection, will be made part of the record. Without 
objection, her statement will be part of the record. A copy of 
her statement will be at the front table, if it is not already 
there. And she is with us today in the front row.
    [The prepared statement of Ms. Barker follows:]

                   Prepared Statement of Tracy Barker

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. First, there continues to be a lack of 
transparency, and the most poignant sign of the problem is the 
Department of Justice's absence here today.
    We had a hearing, in fact, on this issue back in June. We 
learned that 17 pending cases of detainee abuse, including the 
abuse at Abu Ghraib prison by contractors, have remained with 
the U.S. Attorney's Office in the Eastern District of Virginia 
for 3 years.
    In some of these cases the Army has investigated 
circumstances behind them and has found probable cause that a 
crime has been committed and referred the case to the 
Department of Justice for prosecution.
    We are not told why these cases against contractors have 
not been investigated or why they are being held up.
    In response to our concerns, we marked up a bill, H.R. 
2740, the MEJA Expansion and Enforcement Act of 2007, which 
would require the Inspector General of the Department of 
Justice to complete and submit a report about identification 
and prosecution of alleged abuses in Iraq. This bill has passed 
the House but has not been acted upon by the Senate.
    In the case we will hear about today, the department has 
remained silent for over 2.5 years regarding the status of the 
criminal investigation. Why has it taken this long for the 
department, in what should for the department be a routine and 
swift rape investigation?
    Second, there are a number of laws the department can 
enforce with respect to contractors who commit crimes abroad, 
but it chooses not to. These include the Military 
Extraterritorial Jurisdiction Act, the Patriot Act and the 
Special Maritime and Territorial Jurisdiction Act.
    There is nothing to believe that the incidents before us 
are not covered by present law, and the department has even 
informed us that many provisions of existing law do permit 
prosecutions.
    The bill I mentioned, H.R. 2740, would close the loophole 
to cover all private security contractors, not just those 
contracted through the Department of Defense, to ensure that 
all contractors overseas are accountable under United States 
law.
    But in the situation we will hear about today, the 
contractor was a DOD contractor, so there should be no question 
about jurisdiction.
    Finally, there is no mechanism in place to ensure 
appropriate investigation of crimes. In fact, we have heard of 
many instances in which the Department of Justice and the FBI 
failed to get directly involved once crimes are alleged.
    For example, FBI agents only flew out to Baghdad to 
investigate the September 16th Blackwater incident after 
sufficient congressional pressure and media coverage. We need 
to know how long after the alleged shooting were they notified 
of the incident.
    How long after Ms. Jones' allegations occurred were the FBI 
notified, and what steps were taken?
    H.R. 2740 requires the FBI to establish on-the-ground 
investigative units in Iraq to investigate reports of criminal 
misconduct.
    But the Department of Justice has balked at this idea and 
apparently does not support its inclusion in any bill, even 
though it has the current authority to create such units on its 
own.
    The Department of Justice seems to be taking action with 
respect to enforcement of criminal laws in Iraq only when it is 
forced to do something by embarrassing media coverage.
    Our government is entrusted with the responsibility to 
oversee contractors in Iraq and most certainly bears the burden 
to protect innocent American civilians.
    I hope this hearing will identify the reason why this is 
not happening.
    With that said, it is my pleasure to recognize the Ranking 
Member of the Subcommittee, the gentleman from Texas, Judge 
Louie Gohmert.
    Mr. Gohmert. Thank you, Chairman Scott. And I do appreciate 
your holding this hearing. This is a very important issue.
    And I want to thank our witnesses for taking time out of 
their busy schedules to be with us today.
    Professor Horton, thank you.
    And especially want to welcome my good friend, dear friend, 
and fellow former district judge from Texas, Congressman Ted 
Poe.
    And also, Ms. Jones, thank you for being here and for 
graciously agreeing to share your story. I admire your courage 
in coming forward. I know this is not easy to come into a 
public forum and do this.
    Ted, we have seen people have to do this kind of thing in 
order for justice to be done, and we believe that by your doing 
so, hopefully we will move justice in the right direction.
    But you have also given a voice to women who have been the 
victims of sexual assault in Iraq and also Afghanistan. And I 
hope today's hearing will shed additional light on the 
disturbing trend of American women being victims of sexual 
assault outside our national boundaries.
    I am deeply troubled by what happened to you in Iraq. No 
one should have to suffer that kind of abuse.
    And now, after 2 years, we are hearing--and I got an e-mail 
today indicating that the Justice Department could not come 
forward and testify today because the matter is finally under 
investigation.
    And I applaud any efforts Attorney General Mukasey will 
make in that direction. We have got a new regime and it looks 
like they are finally moving in the right direction.
    The members of this panel are not privy to all the details 
about what, if any, investigation has occurred. According to 
news accounts, the State Department's Bureau of Diplomatic 
Security investigated the assault, turned its findings over to 
the Department of Justice. And like I say, they are now 
assuring us that they are investigating the matter.
    At the same time, we are learning that KBR may have been 
instructed by the U.S. government to cease its investigation, 
but we don't know who gave that instruction.
    It also appears that physical evidence of the assault was 
subsequently lost or destroyed. I hope it is not too late to 
see justice done in this case. No one is above the law. No one 
should be above the law, whether here in the United States or 
in Iraq.
    In recent years, Congress has addressed the application of 
Federal criminal laws to U.S. persons overseas. In 2000, 
Congress passed the Military Extraterritorial Jurisdiction Act 
of 2000, also referred to as MEJA, to extend the application of 
U.S. Federal criminal law to acts committed by members of the 
military, civilian employees of the military and dependents 
accompanying the armed forces overseas.
    Congress again amended MEJA in 2005 to apply it to 
employees and contractors only ``to the extent such employment 
relates to supporting the mission the Department of Defense 
oversees.''
    The authority of the U.S. government to prosecute the 
assault of Ms. Jones turns on whether those accused of the 
attack were employed in support of a DOD mission overseas.
    There seems to be some dispute amongst the expert about 
whether MEJA applies in this instance. But the simple fact is 
that we don't have enough facts to make the determination yet.
    In October, the House passed H.R. 2740, the MEJA and 
Enforcement Act of 2007. This legislation expands MEJA again to 
allow U.S. criminal prosecution of all Federal contractors 
operating in an area or in close proximity to an area where the 
armed forces are conducting a ``contingency operation,'' and 
requires the FBI to establish overseas theater investigative 
units in areas where contractors are operating.
    Hopefully, the Senate will act quickly on this legislation.
    But I look forward to hearing from today's witnesses and 
appreciate your time in being here.
    Thank you. I yield back.
    Mr. Scott. Thank you.
    The Chairman of the full Committee, Mr. Conyers?
    Mr. Conyers. Good morning, Chairman Scott and Members.
    I join all in welcoming our friends here, Jamie Leigh Jones 
and Tracy Barker, sitting in the first row.
    Congressman Ted Poe, thanks for all you have done.
    This is outrageous that we even have to be here today. And 
it illustrates, in my judgment, how far out of control the law 
enforcement system in Iraq is today.
    The story that we will hear truly shocks the conscience and 
shows how out of whack our priorities have become.
    When a brave public-spirited individual working in support 
of her country in Iraq, like Ms. Jones, can be brutally raped 
by her fellow employees, this is something that demands our 
immediate attention. And I am so glad that at least we are 
moving on this immediately.
    When the biggest contractor in Iraq, a large and, at one 
time, respected firm, can compound and worsen the situation, 
going as far as to falsely imprison her, this is a tragedy.
    And when our own Department of Justice can and does fail to 
take action, while the apparently miscarriage of justice is 
allowed to fester, this is a public outrage that demands these 
hearings and investigation.
    Does anyone in this room feel it is acceptable for an 
American citizen like Ms. Jones to be drugged, raped and 
falsely imprisoned?
    Does anyone think it is appropriate that almost 2.5 years 
after the incident there hasn't been a single prosecution in 
the case?
    Is there anyone here that thinks it is appropriate that the 
Department of Justice victims' rights ombudsman summarily 
rejected Ms. Jones' complaint 6 months ago, and she was not 
even seen by a Federal prosecutor until October?
    This is no small matter, given that there are 180,000 
civilian contractor employees in Iraq, including more than 
21,000 Americans, plus additional security contractor 
employees. We have got more civilians over there than military.
    And there are other troubling reports of similar sexual 
assaults against contractor employees. So that is why I am here 
to tell you that this Committee's investigation will not end 
today.
    It is unacceptable for our own Department of Justice to 
refuse to testify today. The letter they sent last night does 
not begin to respond to the tragedy and injustice that we are 
looking at now.
    The department claims to be committed to law enforcement in 
Iraq. But they tell us nothing about what is being done in Ms. 
Jones' case. They can't even give us one example of a 
prosecution where the victim was a civilian contractor employee 
in Iraq.
    And they can't describe any steps they have taken to ensure 
that such Americans in Iraq report crimes by contractor 
employees there to Federal law enforcement and that prompt 
investigation and prosecution will occur.
    The American people and this Committee have the right to 
demand justice and accountability. And I, for one, intend to 
see that that is exactly what we get.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you, Mr. Conyers.
    We will have statements from other Members.
    The gentleman from Ohio waives.
    The gentleman from Georgia?
    Mr. Johnson. Thank you, Mr. Chairman. I would like to, 
first of all, thank you for promptly responding to this rapidly 
and publicly unfolding drama that first came to public 
attention, I believe, approximately 1 week ago.
    And here we are today holding oversight hearings in 
Congress. And I think that this is what makes us proud to--this 
is what makes me proud to serve in Congress.
    And of course, under the auspices of our Chairman, who has 
set the pace for this kind of vigorous oversight, Chairman 
Conyers, we want to thank you.
    And I also want to thank all of the witnesses for coming 
today, especially to Ms. Jamie Leigh Curtis (sic), for what you 
have endured and for coming here to tell us your story.
    Mr. Scott. Jamie Leigh Jones.
    Mr. Johnson. Excuse me. Did I say Jamie Leigh Curtis? Jamie 
Leigh Jones. Okay, I am sorry. All right. Jamie Leigh Jones.
    And I want to also point out that Ms. Tracy Barker is here, 
who is another victim of similar activity that was undergone by 
Ms. Jones.
    And also here are the attorneys representing both victims. 
Mr. L. Todd Kelly and Mr. Paul Walton are from Houston, Texas. 
And also, Stephanie Morris of Washington, D.C.
    And this is a case against Halliburton which actively 
concealed both of these egregious violations of the criminal 
law and then engaged in a coverup to keep these issues from 
ever seeing the light of day in criminal court.
    And these issues have continued to this day. And for that 
reason alone, it would seem that both victims would be able to 
come into civil court and prosecute their claims for justice in 
front of a jury.
    Unfortunately, the issue of pre-dispute binding mandatory 
arbitration arose when they attempted to seek redress. And 
these types of hidden clauses in employment agreements strip 
citizens of their basic rights to a jury trial.
    Arbitration agreements were meant to be agreements between 
equal parties. But for Ms. Jones, Ms. Barker and the countless 
other employees who have tried to exercise their rights under 
these agreements, they turn out to be anything but equal.
    Companies have taken advantage of employees by forcing them 
to sign away their rights to a public justice system in favor 
of a private, for-profit justice system where the chips are 
stacked against them and where the arbitrator, playing judge 
and jury, typically sides with the big business that signs his 
or her paycheck.
    With over 180,000 civilian contractors in Iraq, our Federal 
laws must protect those who are working for our government. We 
should be protecting them.
    And we should have protected you, Ms. Jones, criminally, 
and you should have the protection of the civil laws here in 
America as well.
    I am hopeful that the Senate can move forward on H.R. 2740, 
the MEJA Expansion and Enforcement Act of 2007, which would 
close the loophole to ensure that all contractors are 
accountable under U.S. criminal law and mandates that the 
Department of Justice, through the FBI, enforce this bill by 
investigating and prosecuting offenses under the law.
    But we also need to understand how pre-dispute mandatory 
arbitration agreements are contracts of adhesion and they 
affect the ability of victims, especially those who are unable 
to seek criminal penalties, from seeking civil damages when 
they have been truly wronged.
    I also want to thank Representative Ted Poe, who took 
prompt action when notified by the father of Ms. Jones and was 
able to get Ms. Jones out of harm's way, out of the Green Zone 
in Iraq, and is here to testify today.
    And I thank you, sir, for your service to the country.
    And with that, I will yield back.
    Mr. Scott. Thank you.
    I would recognize Members for brief statements if possible.
    In order of appearance, the gentlelady from Texas? I 
understand you had a brief statement.
    Ms. Jackson Lee. Let me say good morning to my colleague 
from Texas and to Ms. Jones and to Professor Horton. Thank you 
very much for being here.
    I think it is the evidence of this place being the people's 
house that we responded so quickly.
    And I thank the Chairman of the Subcommittee and the 
Chairman of the full Committee for their promptness in this 
case.
    I am holding the Constitution in my hand, Ms. Jones, 
because I want you to know that your leaving the boundaries of 
the United States does not quash or deny your constitutional 
rights. Protection under this document goes to you wherever you 
go.
    And particularly, the Sixth Amendment indicates that there 
is a right to a jury trial. You have a right to see those who 
perpetrated this heinous and outrageous violent act against you 
tried by a jury and, frankly, convicted, from the very actor to 
the corporation, with enhanced penalties.
    So I am grateful that you are here today. And I want to 
tell you just a brief story in my brief comments. Just a few 
weeks ago, I sat in the airport. I met a young lady who was en 
route to Houston with all of the joy and excitement of her 
first time leaving her community in Georgia, getting on an 
airplane, leaving three children behind to be raised by her 
mother, to join the staff in Houston of the company that you 
worked for.
    She was on her way, or is on her way, Congressman Poe, to 
Iraq. She had a sense of pride.
    And so what I would say to those who are here today--you 
are a patriot. You are a hero. You are willing to sacrifice 
because you were moved by the cause, by the need, to go to Iraq 
and to serve your country. You deserve better.
    And I am grateful that Congressman Poe, as recognized in 
representing you, you are--your dad is his constituent, and he 
made good on the promise that we make coming to the United 
States Congress. The people's house represents the people.
    And so it is disappointing to find out that there is an 
empty chair sitting there--has taken an oath. The attorney 
general, Department of Justice--those officers there take an 
oath to protect the American public.
    Unfortunately, with people not prosecuted, they have, in 
fact, not taken seriously their oath.
    I, too, hope that the legislation moves forward. But as 
representatives or contractors to the Defense Department, we 
may need to look more extensively at the punitive measures 
against corporations that don't understand the rights of 
Americans and patriots and heroes who work for them.
    Let me lastly say that I hope Congressman Poe will share 
with us his involvement or his inquiry to Halliburton and KBR. 
There is a suggestion that Halliburton was not involved.
    I would like to hear whether you engaged with either of 
those or together, those corporations, and what their response 
was.
    So let me simply close by saying the flag does not leave 
you when you leave this country. And the fact that you were 
abused and violated--and the women that are with you, and your 
lawyers who are here representing you--and incarcerated is a 
damnation to the values of the country.
    And as we sit here today, I promise you, as I join the full 
Committee Chair, we will find a solution on behalf of you, who 
have served this country and can be considered a patriot and a 
hero.
    Thank you very much. I yield back.
    Mr. Scott. Thank you.
    The gentleman from California?
    Mr. Lungren. No, I am here to hear the witnesses.
    Mr. Scott. Thank you, here to hear the witnesses.
    The gentlelady from Wisconsin?
    Ms. Baldwin. Thank you, Mr. Chairman.
    Chairman Scott and Ranking Member Gohmert, I want to 
express my appreciation for your holding this important and 
timely hearing on U.S. contractors in Iraq.
    And I particularly want to thank our panel of witnesses 
today, and particularly you, Ms. Jones, for being here and 
providing testimony here today.
    I also appreciate your admirable work with the Jamie Leigh 
foundation, because you are helping other Americans who are 
victims of sexual assault, sexual harassment and abuse while 
working abroad.
    And I can only imagine what a difficult experience this has 
been for you, and I want you to know how much we appreciate 
your efforts to shed light on such an appalling and, frankly, 
intolerable issue.
    Americans abroad should have the same protections under the 
law that they receive here in this country. And U.S. civilians 
who perpetrate crimes while working abroad should be held 
accountable for their actions just like they would if they were 
here at home.
    This concept seems so simple that I am having trouble 
understanding how our government has failed this pitifully in 
helping Americans like Ms. Jones find justice.
    In light of the Blackwater shootings and other serious 
incidents in Iraq, the fact that there has been no a single 
completed prosecution of a crime involving a contractor 
implicated in violent crime in Iraq is inexcusable.
    The lack of accountability and oversight has apparently 
contributed to an environment of lawlessness among those 
serving as contract employees for the U.S. government.
    And despite what I have to presume are appropriate internal 
policies aimed at preventing these atrocities, Ms. Jones and 
other former Halliburton and KBR employees have described a 
boys-will-be-boys environment that devastated their experiences 
in Iraq.
    Nobody at Halliburton and KBR has yet responded effectively 
to multiple allegations of sexual assault and ongoing 
harassment. Instead, there was an attempted coverup.
    I am saddened to think that this unacceptable boys-will-be-
boys attitude appears to have permeated our government agencies 
as well.
    We have applicable laws in place, but our Department of 
Justice seems unwilling to enforce them.
    And, Mr. Horton, I agree with your assessment in your 
written comments of the department's attitude of official 
indifference.
    Again, I want to thank our witnesses for being here today 
to help us do a better job of making sure that these situations 
never occur again.
    Thank you. I yield back.
    Mr. Scott. Thank you.
    The gentleman from New York?
    Mr. Weiner. Thank you, Mr. Chairman, and I want to thank 
you for holding the hearing.
    You know, this is a remarkable example of how we sometimes 
react to things when we are fortunate enough to hear about them 
but have no idea how deep the roots of the problem go.
    If we had not had someone like Ms. Jones, with remarkable 
strength, to take her breathtaking adversity and try to get 
some attention for it, had she not had the wisdom or her family 
not had the wisdom to reach out to her congressman, we might be 
reading about this in a postage stamp-sized dispatch in our 
local paper.
    We don't know, as Ms. Baldwin just pointed out, how many 
dozens and dozens of cases like this might exist in this seam 
that exists in the law.
    And while Professor Horton is going to talk with erudition 
about the fine points of the law and how we can improve it, 
let's not forget one overarching thing. The people that 
committed this crime were our employees, employees of the 
taxpayers of the United States of America.
    We might have hired someone who was not wearing the uniform 
of the United States of America, but it doesn't make us any 
less accountable for the actions that they took.
    We sign their paychecks. We sign the contracts that put 
them on duty. We should be the ones setting the laws and 
enforcing them.
    The abject indifference of the Department of Justice, as 
exemplified by the opening remarks of Mr. Conyers and by their 
absence today, shows what their approach to this problem is. It 
is more or less ``it ain't our problem,'' is what they are 
saying.
    We here on the House Judiciary Committee are saying that as 
Members of Congress, it is our responsibility. Ms. Jones has 
been victimized more than one time. She was victimized, 
obviously, in the horrific crime.
    She was victimized again when the reasonable course of 
justice was disrupted by a comprehensive effort to destroy 
evidence that might have existed, disperse people who might 
have been able to testify about it.
    She was victimized again by the Department of State and 
Department of Justice essentially throwing up their hands and 
saying, ``You have got a contract. Go try to enforce it in a 
civil court.''
    And we are here to say that, you know, there is a higher 
imperative here. You know, there are frequently the 
explanations from the Administration that say, ``Look, war is 
hell. Things happen. There is the fog of war that sometimes 
takes place.''
    But this now seems to be an organized effort by the United 
States of America not to have responsibility and expressing 
that by hiring these outside contractors to do not only the 
dirty work of war, which some of us find necessary, but also 
they wash their hands of the dirty deeds that go on. And we 
have to say that enough is enough.
    And I want to conclude the way I began, by expressing, I 
think, all of our gratitude to you, Ms. Jones. You know, it 
takes a remarkable amount of courage to go through what you did 
and not simply return to your home and try to heal yourself. 
You chose not to do that. You brought this forward here.
    Unfortunately, in the echo chamber of information that we 
have nowadays, without the face and the voice of someone who 
has actually been through it, none of these things get changed.
    Hopefully, you will change that today. Hopefully, 
Congressman Poe, by bringing this forward, has made that 
possible.
    And hopefully, this Committee's actions will lead us to 
finally, as a Nation, say not, ``Tsk tsk, it is a shame what 
goes on,'' but that, ``We as the United States of America are 
responsible.''
    And I thank you, Mr. Chairman.
    Mr. Scott. Thank you, Mr. Weiner.
    I ask unanimous consent that a statement from the Chair of 
the Subcommittee on Commercial and Administrative Law, the 
gentlelady from California, Ms. Sanchez, be entered into the 
record.
    As Chair of that Committee, she has been dealing with the 
issue of mandatory arbitration, and her statement relates to 
that issue. Without objection, so ordered.
    [The prepared statement of Ms. Sanchez follows:]

Prepared Statement of the Honorable Linda T. Sanchez, a Representative 
in Congress from the State of California, and Chairwoman, Subcommittee 
                  on Commercial and Administrative Law

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Scott. We have a distinguished panel of witnesses here 
to help us consider the important issues of the day.
    Our first witness was to be a representative of the U.S. 
Department of Justice, but in a letter sent to us just last 
night they have declined to testify.
    They cite the fact that there is a pending investigation on 
these allegations that we will hear today. And as the Ranking 
Member has properly pointed out, we do not expect the 
Department of Justice to testify on specific cases under 
investigation.
    But they failed to inform us as to why they could not 
appear to discuss other contractor crimes generally in Iraq 
which are not undergoing any pending investigation or 
prosecution or whether or not they have sufficient statutory 
authority to investigate cases like this.
    But they are not here.
    Our next witness will be the gentleman from Texas, 
Representative Ted Poe, who represents the 2nd Congressional 
District of Texas. He is the founder and co-chair of the 
Congressional Victims Rights Caucus.
    As a former criminal court judge and prosecutor for over 30 
years in the Houston area, he is recognized nationally for his 
creative sentencing of criminals and as a dedicated advocate 
for victims and children.
    Our next witness will be Ms. Jamie Leigh Jones, who in 2005 
traveled to Baghdad as a contract employee of KBR and was 
placed in a predominantly male barracks located in Camp Hope.
    She will testify to events that occurred only 4 days after 
her arrival. She subsequently founded the Jamie Leigh 
Foundation, a nonprofit organization dedicated to helping 
United States citizens and legal residents who are victims of 
sexual assault, sexual harassment, rape and sexual abuse while 
working abroad for Federal contractors, corporations or 
government entities.
    We want to thank Ms. Jones for her courage and for her 
presence today.
    And finally, we will hear from Scott Horton, who is an 
adjunct professor at Columbia Law School, where he teaches law 
of armed conflict and commercial law courses.
    Since February of this year, he has managed the Project on 
Accountability of Private Military Contractors at Human Rights 
First.
    He is the author of more than 100 publications dealing with 
issues of international public and private law and is currently 
working on a book on legal policy issues relating to private 
military contractors.
    Now, each of our witnesses' written statements will be made 
part of the record, each statement in its entirety. I will ask 
that each witness summarize his or her testimony in 5 minutes 
or less.
    And to help you stay within that time, I hope the timing 
devices are working at the table. They should start off green, 
go to yellow when a minute is left, and then to red when the 5 
minutes are up.
    First we will hear from Congressman Poe.

    TESTIMONY OF THE HONORABLE TED POE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Poe. Thank you, Mr. Chairman, and Chairman Conyers and 
Judge Gohmert, for holding this hearing, especially in just a 
short period of time, in 7 days, holding this very important 
hearing.
    I am here to introduce a brave and courageous young woman, 
Jamie Leigh Jones. She will tell you about the horrific 
experiences in Iraq as an American civilian contractor who was 
drugged and gang-raped by her American civilian co-workers.
    She went to Iraq as a patriot to help our American 
military. But what Jamie will tell you paints a picture of 
lawlessness, where criminals go unpunished and victims are 
vilified.
    For American civilian contractors, Iraq is reminiscent of 
the Old West days and no one seems to be in charge. The law 
must be enforced, and these outlaws need to be rounded up and 
we have to restore order.
    I became involved in this case when Jamie's dad, who is 
here, called my office in Texas because I represent Jamie and 
her family in Congress.
    He relayed Jamie's account of her assault and being held 
hostage in a shipping container and asked for immediate 
assistance.
    My staff and I contacted the United States Department of 
State's Department of Overseas Citizens Services. And within 48 
hours, the State Department quickly dispatched two agents from 
the U.S. embassy in Baghdad, rescued Jamie and brought her back 
home to Texas.
    It is my understanding that an assistant U.S. attorney 
interviewed Jamie and that a State Department special agent 
investigated the case. However, the Department of Justice has 
not informed Jamie or me of the status of a criminal 
investigation against her rapists, if any investigation exists.
    It is interesting to note that the Department of Justice 
has thousands of lawyers, but not one from the barrage of 
lawyers is here to tell us what, if anything, they are doing. 
Their absence and silence speaks volumes about the hidden 
crimes in Iraq.
    Their attitude seems to be one of blissful indifference to 
American workers in Iraq.
    Jamie turned to another government agency in 2006. She 
filed a formal complaint with the U.S. Equal Employment 
Opportunity Commission against KBR for sexual harassment.
    In May 2006, the EEOC issued a letter of determination that 
was favorable to Jamie. The EEOC determined that Jamie was 
sexually assaulted by one or more KBR employees, that physical 
trauma was apparent, and that KBR's own investigation ``was 
inadequate and did not effect an adequate remedy.''
    Two and a half years after her assault, Jamie still does 
not have any justice. Jamie decided to go public with her case 
because she wasn't getting answers from our government. It 
seems our government agencies continued to fail her.
    While the criminal justice system has certainly failed 
Jamie in the United States, the civil court system may be of no 
help to her either in holding wrongdoers civilly liable for the 
injuries they have inflicted on their victims.
    The inclusion of a binding arbitration clause in Jamie's 
employment contract may preclude her from accessing a judge or 
jury to hear her civil case. She may be forced into 
arbitration, a privatized justice system with no public record, 
no discovery and no meaningful appeal.
    As a former judge, I have always thought the best way to 
solve disputes was in a courtroom with a jury.
    Since Jamie has gone public with her experience, my office 
has heard from three other women. Of course, my office will 
furnish the names of these women to the Judiciary Committee if 
requested.
    One of these three women is Tracy Barker. She is a former 
KBR employee who says that she was sexually assaulted in Iraq 
by a State Department employee who still works for the State 
Department today. Tracy is here.
    The two other women also are former KBR employees. They 
both report sexual assaults and sexual harassment by their co-
workers in Iraq, and neither woman has seen any Federal law 
enforcement action.
    One of the women informed my office that she was molested 
several times and raped once by her KBR co-workers. When she 
reported the crime to her supervisor, she was told that they 
would take care of it.
    She returned to work 2 days later and found her rapist 
working alongside of her. She panicked and called for the Army 
M.P.s, who escorted the rapist off of the base. However, she 
was subsequently fired. And it seems, unfortunately, Jamie's 
case is not unique.
    Our government has a responsibility to protect Americans 
overseas. These contractors work in support of the American 
military mission. Those who work in Iraq in support of the 
American military have the right to the same protections that 
we bestow on citizens that are in America.
    It seems to me we need a new sheriff in Iraq to enforce 
Federal laws. The individual rapists must be prosecuted. 
Americans cannot go abroad, commit attacks on fellow Americans, 
without the long arm of the law holding them accountable.
    The individuals who assaulted Jamie must be rounded up and 
tried by a jury. Nonfeasance by civil contracting companies 
cannot be tolerated.
    And victims must get the justice that they deserve because, 
Mr. Chairman, justice is what we do in America.
    [The prepared statement of Mr. Poe follows:]

   Prepared Statement of the Honorable Ted Poe, a Representative in 
                    Congress from the State of Texas

    Good morning, Mr. Chairman, Members of the subcommittee. Thank you 
for quickly organizing and holding this important hearing.
    I am here this morning to introduce a brave young woman, Jamie 
Leigh Jones. She will tell you about her horrific experiences in Iraq 
as an American civilian contractor, who was drugged and gang-raped by 
her American civilian coworkers.
    What Jamie will tell you paints a picture of lawlessness--where 
criminals go unpunished and victims are vilified. For American civilian 
contractors, Iraq is reminiscent of the Old Western days and no one 
seems to be in charge. The law must intervene, round up these outlaws, 
and restore order.
    I became involved in this case when Jamie's dad called my office in 
Texas because I represent Jamie and her dad in Congress. He relayed 
Jamie's account of her assault and being held hostage in a shipping 
container and asked for immediate assistance. My staff and I contacted 
the United States Department of State's Department of Overseas Citizens 
Services. Within 48 hours, the State Department dispatched two agents 
from the US Embassy in Baghdad, rescued Jamie, and brought her back 
home.
    It is my understanding that an Assistant US Attorney interviewed 
Jamie and that a State Department Special Agent investigated her case. 
However, the Department of Justice has not informed Jamie or me of the 
status of a criminal investigation against her rapists. It is 
interesting to note that the Department of Justice has thousands of 
lawyers, but not one from the barrage of attorneys is here to tell us 
what, if anything, they are doing. Their absence and silence speaks 
volumes about the hidden crimes of Iraq.
    Jamie turned to another government agency in January 2006. She 
filed a formal complaint with the US Equal Employment Opportunity 
Commission against KBR for sexual harassment. In May 2006, the EEOC 
issued a Letter of Determination that was favorable to Jamie. The EEOC 
determined that Jamie was sexually assaulted by one or more KBR 
employees, that physical trauma was apparent, and that KBR's own 
investigation ``was inadequate and did not effect an adequate remedy.''
    Two and a half years after her assault, Jamie does not have 
justice. Jamie decided to go public with her case because she wasn't 
getting answers from our government. It seems our government agencies 
have failed her.
    While the criminal justice system has certainly failed Jamie, in 
the United States, the civil court system may be of no help either in 
holding wrongdoers civilly liable for the injuries they have inflicted 
on victims. The inclusion of a binding arbitration clause in Jamie's 
employment contract may preclude her from accessing a judge or jury to 
hear her civil case. She may be forced into arbitration, a privatized 
justice system with no public record, no discovery, and no meaningful 
appeal. If her case is arbitrated, the very company who victimized her 
will pick the arbitrator who will decide her fate. Jamie needs and 
deserves justice. As a former judge, I have always thought that the 
best way to solve disputes was in a courtroom with a jury.
    Since Jamie has gone public with her experience, my office has 
heard from 3 other women. Of course, my office will furnish the names 
of these women to the Judiciary Committee if needed. One of the three 
women is Tracy Barker. Tracy is also a former KBR employee, who says 
that she was sexually assaulted in Iraq by a State Department employee 
who still works at the State Department today.
    The 2 other women are also former KBR employees. They both report 
sexual assaults and sexual harassment by their coworkers in Iraq and 
neither woman has seen any federal law enforcement action. One of the 
women informed my office that she was molested several times and raped 
once by her KBR coworkers. When she reported the crime to her immediate 
supervisor, she was told that they would take care of it. She returned 
to work two days later and found her rapist working alongside of her. 
She panicked and called Army MPs, who escorted the rapist off of the 
base. However, she was subsequently fired. It seems that, 
unfortunately, Jamie's case is not unique.
    Our government has a responsibility to protect American civilians 
overseas. These contractors work in support of an American military 
mission. Those who work in Iraq in support of the American military 
have a right to the same protections that we bestow on our citizens 
here in America.
    We need someone in Iraq to enforce our federal laws. The individual 
rapists must be prosecuted. Americans cannot go abroad and commit 
attacks on fellow Americans without the long arm of the law holding 
them accountable.
    The individuals who assaulted Jamie must be rounded up and tried. 
Nonfeasance by civilian contracting companies cannot be tolerated. 
Victims must get the justice that they deserve because justice is what 
we do in America. And that's just the way it is.

    Mr. Scott. Thank you very much, Congressman.
    Ms. Jones?

  TESTIMONY OF JAMIE LEIGH JONES, FORMER EMPLOYEE OF KELLOGG 
               BROWN AND ROOT (KBR), HOUSTON, TX

    Ms. Jones. Good morning, Mr. Chairman and Members of the 
Committee.
    I would first like to introduce my father, Tom Jones; my 
husband, Joseph Daigle; my attorney, Todd Kelly; Stephanie 
Morris, my other attorney; Tracy Barker, a fellow victim; and 
Breanna Morgan, my mother.
    I went to support Operation Iraqi Freedom in the Green Zone 
in Baghdad, Iraq on July 25, 2005. Upon arrival at Camp Hope, I 
was assigned to an all-male barrack. I complained about the 
living conditions but Halliburton did nothing to help.
    I was subject to repeated catcalls and men who were 
partially dressed in their underwear while I was walking to the 
restroom on a separate floor from me.
    The EEOC reviewed Halliburton's comments, found them 
unbelievable and credited my testimony about what happened. The 
Committee has this finding as an exhibit.
    On the fourth day in country, I stepped outside my barracks 
to take a call. Afterwards, some co-workers called me over and 
invited me to join them for a drink.
    The men, identified only as Halliburton-KBR firefighters, 
told me that one of them made really good drinks, so I accepted 
the drink from them. He handed me the drink and said, ``Don't 
worry, I saved all my 'roofies' for Dubai,'' or words very 
similar to that.
    I thought that he was joking and felt safe with my co-
workers. I believed that we were all on the same team. I took 
two sips from the drink and don't remember anything after that.
    The next morning, I was extremely sore between my legs and 
in my chest. I was groggy and confused. I went to the restroom 
and realized I had bruises between my legs and on my wrists and 
was bleeding between my legs.
    When I returned to my room, a man was laying in the bottom 
bunk of my bed. It wasn't the same man who gave me the drink. I 
asked him if he had had sex with me, and he said that he did. I 
asked if it had been protected, and he said no.
    I was still feeling the effects of the drug from the drink 
and was now very upset at the confirmation of my rape. My heart 
sank that day.
    I reported this incident to a KBR worker who sent me to the 
KBR clinic. The clinic called KBR security, who took me to the 
Army CASH. Dr. Jodi Schultz performed a rape kit analysis, 
including photographs and a form that indicated all the 
bruises.
    She also took swabs, vaginal combings and scrapings from 
under my fingernails, as well as my panties and bra, and put 
the entire kit together in a small white box. I watched her 
give this box to the KBR security personnel as I was again 
turned over to these men.
    During the exam, Dr. Schultz confirmed that I had been 
penetrated both vaginally and anally and that I was ``quite 
torn up down there.'' She indicated that based upon the 
physical damages to my genitalia that it was apparent that I 
had been raped.
    The KBR security then took me to a trailer and then locked 
me in a room with two armed guards outside my door. I was 
imprisoned in the trailer for approximately a day. One of the 
guards finally had mercy and let me use a phone.
    I called my dad, who contacted Congressman Ted Poe, who 
took actions to get me out of the country. I believe he saved 
my life.
    I was later interviewed by Halliburton-KBR supervisors, and 
it was made clear to me that I had essentially two choices--
one, stay and get over it, or, two, go home with no guarantee 
of a job either in Iraq or in Houston.
    Because of the severity of my injuries, I elected to go 
home, despite the obvious threat of being fired.
    Once I returned home, I sought medical attention, both 
psychiatric and physical. I was originally sent to a 
psychiatrist of Halliburton's choosing. The first question 
asked was, ``Are you going to sue Halliburton?'' So my mother 
and I walked out.
    Some time around May 2007, a State Department agent called 
and said that she was not aware of a rape kit or any pictures 
of my injuries. I insisted that the rape kit existed and 
forwarded a copy of KBR's own EEOC response to prove that the 
Army doctor handed it over to a KBR employee at the hospital 
the night of the rape.
    It was a few days later that I received a call from the 
agent stating she had found the rape kit but the pictures were 
missing and so were the doctor's notes attached to the top of 
the rape kit.
    I have had reconstructive surgery on my breasts and 
pectoral muscles due to the disfigurement caused by the brutal 
attack. I am still waiting for a follow-up surgery because I am 
still not back to normal. I have to sleep with a sports bra 
because of the pain. I still continue to go to counseling three 
times per week.
    It seems that nothing happens in my criminal case unless 
there is media attention. Right after I was interviewed with 
20/20, I was flown to Florida to meet with the assistant United 
States attorney.
    I asked the AUSA where should I refer victims who contact 
me through the Jamie Leigh Foundation, and she responded, 
``Don't refer them to my office, but you may want to refer them 
to the Office of Victims of Crime.''
    This problem goes beyond just me. Through the Jamie Leigh 
Foundation, numerous other women have contacted me who were 
assaulted and raped and were then retaliated against for 
reporting those attacks.
    There are at least 11 others that my attorneys are aware 
of, not including those filed by other lawyers and those who 
have come to me through my foundation.
    As indicated by the sworn affidavit by an H.R. 
representative from Halliburton, it is clear that sexual 
harassment was an overwhelming problem in Iraq, and this was 
known to Halliburton and KBR, but they hide it from 
unsuspecting victims like myself.
    There has been no prosecution after 2.5 years. My attorney, 
Stephanie Morris, wrote a letter to the ombudsman of the Office 
of Victims of Crime, also enclosed with the letter. Hopefully, 
the next victim will not have to wait so long.
    The arbitration laws are so abusive that Halliburton is 
trying to force this into a secret proceeding which will do 
nothing to prevent continued abuse of this nature. What is 
there to stop these companies from victimizing women in the 
future?
    The United States government has to provide people with 
their day in court when they have been raped and assaulted by 
other American citizens.
    Otherwise, we are not only deprived of our justice in the 
criminal courts but in the civil courts as well. The laws have 
left us nowhere to turn.
    Thank you, Chairman and Members of the Committee, for 
inviting me to be here today.
    [The prepared statement of Ms. Jones follows:]

                Prepared Statement of Jamie Leigh Jones

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you, Ms. Jones, and thank you for your 
courage in being with us today.
    Professor Horton?

 TESTIMONY OF SCOTT HORTON, ADJUNCT PROFESSOR OF LAW, COLUMBIA 
             UNIVERSITY SCHOOL OF LAW, NEW YORK, NY

    Mr. Horton. Thank you for the opportunity to speak today, 
and I just want to start by saying that I certainly am moved by 
the remarks that Ms. Jones has just made.
    In fact, it is hard to hear them without being angry. But I 
am going to try to be detached and examine some of the legal 
and policy issues that are presented here.
    And I want to start by saying Congressman Poe, I think, 
laid out the basic principles and stated them well, and 
essentially there is not a lot more I have to add to that.
    It is a question of fundamental justice and the Department 
of Justice failing to follow through in an area where it has 
clear jurisdiction and responsibilities.
    I think the Committee probably needs to look at this issue 
at two different levels. Number one is from the perspective of 
legislative--its legislative role. Has it enacted legislation? 
Has it appropriated funds that are sufficient to address this, 
which is clearly a recurrent problem?
    And second, from the perspective of its oversight role--
that is, has the executive branch done everything it needs to 
do in the enforcement area?
    Well, I think we need to start with the fact that we have 
got--we have a community of 180,000 contractors in Iraq. Crimes 
occur. This has to be considered as something politically 
neutral.
    It doesn't suggest that reliance on contractors is a 
mistake. That is an entirely independent political question for 
this body.
    And the community does not consist entirely of angels or 
devils. It consists of ordinary human beings, most of whom, 
undoubtedly, try very hard to honorably serve the country in 
fulfilling their duties.
    But you won't find a community of this size in the United 
States or anywhere in the world where there are not violent 
crimes--in fact, violent crimes that occur hundreds of times in 
the year.
    And when you add to that the high-pressure circumstances 
that go with wartime, life in a war zone, where there are 
constant shootings and bombings, for instance, we know that 
this frequently leads to higher-than-normal rates of violent 
crime.
    So the question is who is playing sheriff. Who is providing 
the oversight? And in this case, there is a special 
responsibility for the United States.
    That responsibility arises because of order number 17 that 
was issued by Jerry Bremer in June of 2004. That order cut off 
the law enforcement powers of the government of Iraq.
    And that, I think, was an appropriate order to issue, but 
it created an obligation on the part of the United States to 
step in and fill the vacuum, to provide the law enforcement for 
this community.
    I think human experience tells us that when there is no law 
enforcement provided, crime is going to proliferate. That is 
something we know from the writings of Hobbes and from human 
experience.
    Now, the accusations that come out of this case are 
disturbing in a number of different particulars, but the first 
is where is the Department of Justice when the incident occurs.
    I mean, clearly, there should have been notification to the 
Department of Justice right off the bat, certainly as soon as 
the embassy heard about it.
    There should have been involvement of the Department of 
Justice in the crime scene investigation at the beginning. 
There is no evidence that that occurred.
    Second, there are a number of outside indicators here 
suggesting that the embassy and others treated this as a 
contractor problem--that is, it is the contractor's 
responsibility to deal with this issue.
    And I have to say now, in several months of talking with 
officials at the State Department, the Defense Department and 
the Justice Department, that is a refrain I hear over and over 
again--it is the contractor's responsibility.
    But it is not the contractor's responsibility to enforce 
the criminal law. That is a ridiculous attitude. It is the 
responsibility of law enforcement agencies to do so. So there 
is just a curious failing here.
    And the third thing I find particularly distressing here 
are the facts surrounding the medical examination, the 
preparation of the rape kit, and the fact that the rape kit 
again was turned over to the contractor.
    Obviously, this leads to all sorts of problems that will 
complicate far down the road a criminal prosecution. There is 
going to be a question of chain of custody, assuming it is ever 
found, but now it is missing. There is no sign of it.
    This has evidence in it that can't be reconstructed after 
the fact. So there are going to be terrible problems here.
    So let me cut down to what are the issues again and what 
are the answers to the two questions I put up front. I think 
the legislation that Congressman Price put forward does address 
the question of jurisdiction.
    Jurisdiction in this case is clearly present, even under 
the 2004 amendment. There is a contract that is involved that 
is a Department of Defense contract.
    But I think, again, it highlights the danger of having too 
technical a restriction in that statute. There is a need to 
broaden it. The Price legislation does that.
    But I think more important even than this, the Price 
legislation comes to a focus on requiring proper resourcing by 
the Department of Justice out in the theater in Iraq, being 
sure that there are FBI agents, there are investigators, that 
there is a trained, seasoned prosecutor.
    Had those resources been present in Baghdad, I think this 
case would have been handled properly, and we wouldn't be 
facing the dilemma and the tragedy that we see right now. So 
there is really a pretty clear fix.
    Thank you very much. I look forward to your questions.
    [The prepared statement of Mr. Horton follows:]

                   Prepared Statement of Scott Horton

    Is America establishing a culture of impunity among its contractors 
operating in areas of armed conflict? This is the question which a 
proliferation of reports out of Iraq invites. When I addressed this 
committee on June 25, I noted that there was a troubling potential that 
certain categories of contractors would escape accountability 
altogether because of some issues that exist with the Military 
Extraterritorial Jurisdiction Act. I also noted concern that the 
Department of Justice might not be giving sufficient resources and 
priority to its enforcement responsibilities over contractors in Iraq 
and Afghanistan. Unfortunately all those concerns have been borne out.
    America's objectives in Iraq and Afghanistan, as articulated by the 
President, the Secretary of Defense and the Secretary of State, include 
helping to create a new democratic society which values the rule of 
law. But the contractor community that America has fielded to pursue 
this objective operates in an environment that looks increasingly like 
Texas West of the Pecos in 1890--without even a Judge Roy Bean to keep 
things in order. This obviously undermines the mission's credibility. 
But it also creates an environment which is dangerous to all involved--
contractors, the military and other U.S. Government personnel, and the 
host community in which they operate.
    Since June, we have witnessed a parade of further headlines which 
demonstrate precisely the shortcomings that were identified and 
addressed in Congressman Price's legislation, H.R. 2740. And while that 
legislation overwhelmingly cleared the House--in a 389 to 30 vote--the 
Senate has not yet acted on a parallel measure. This legislation is 
urgently needed and should be enacted and signed into law in the near 
future.
    This committee should focus on two questions. First, is there a 
question relating to appropriations or to legislation which has 
contributed to the problem which the public now so clearly sees? 
Second, has the executive branch done what it can and should do to 
enforce the law?
    The horrible rape incident involving Ms. Jennifer Leigh Jones is 
sickening to hear recounted. It also provides an opportunity to 
consider exactly how the Government has responded to crimes committed 
by and among contractors. We have a community of 180,000 contractors in 
Iraq. Crimes do occur, and this is and must be considered a politically 
neutral fact. It does not suggest that the reliance upon contractors is 
mistaken. The decision to rely much more heavily on contractors was not 
a partisan decision. This community consists entirely neither of angels 
or devils, but of ordinary human beings, most of whom undoubtedly try 
to act honorably in fulfilling their duties. You won't find a community 
of this size in the United States, or anywhere else in the world, that 
doesn't experience serious violent crimes--hundreds of times in the 
course of a year. Add to that the fact that high pressure 
circumstances--such as life in a war zone in which shootings and 
bombings are common--frequently lead to higher than normal rates of 
violent crime.
    Human experience also teaches--since the first formation of human 
communities--that when the state fails to enforce order, to identify 
crimes as crimes and to punish them swiftly and certainly, crimes 
proliferate. The Government has a duty to the citizens of the United 
States, and also to the employees of the contractor community, to 
vigorously uphold the law. Indeed, this is one of the most fundamental 
duties of any Government. If the executive branch felt it needed new 
tools to do the job, or more money, it had a duty to come to Congress 
and regulate these questions. I have a lot of difficulty seeing how the 
executive branch has met this responsibility in the context of the 
United States presence in Iraq.
    I have not independently investigated the facts of the Jones case, 
though I personally find her account painful and compelling. But if I 
consider the facts that Ms. Jones has described, taking only those 
which have not been disputed by Kellogg Brown & Root, then I see no 
impediment to the exercise of the criminal law jurisdiction of the 
United States by the Department of Justice. As alleged the crimes 
occurred among employees of contractors involved in a contingency 
operation, on installations or facilities maintained by the United 
States abroad, and involve U.S. citizens as perpetrators and victims. 
These facts would provide multiple bases for the Department of Justice 
to exercise its jurisdiction. The crimes which have been alleged--rape, 
assault and false imprisonment among them--would come under at least 
two different grants of jurisdiction to U.S. federal courts, namely the 
Military Extraterritorial Jurisdiction Act, as amended in 2004, and the 
special maritime and territorial jurisdiction, as expanded by the USA 
PATRIOT Act. Of course, depending on the identity of the perpetrators, 
and potentially also the contracts which brought the personnel to Iraq, 
there might be some legal issues. This would have to be developed by 
investigation.
    The astonishing failure in this case is the failure of an 
appropriate law enforcement authority to conduct a prompt and timely 
investigation of the allegations while Ms. Jones was still in theater. 
It does appear that the matter was reported to the Justice Department 
early on, and Ms. Jones recalls meeting with a special agent of the FBI 
from the Baghdad Embassy. But the investigation was conducted by the 
State Department, and it does not appear to have been an investigation 
designed to support a decision to take criminal action, including 
potential prosecution. In a case of this sort, having a timely, 
professional investigation conducted that secures forensic evidence in 
a form which is admissible in subsequent criminal proceedings is 
critical. This does not appear to have occurred. This will make 
prosecution by the Department of Justice incalculably more difficult. 
It may lead a prosecutor to conclude that even though a serious crime 
likely occurred, it will be too difficult to develop the evidence 
necessary to prosecute it.
    In fact the way the medical examination and resulting evidence was 
handled was truly shocking.
    These factual allegations from the Jones case strike me as 
significant and revealing of structural flaws in the way contractor-
related crimes are being handled in Iraq and Afghanistan:
    (1) The Justice Department is effectively not present on the scene, 
does not have personnel deployed charged with conducting 
investigations, collecting evidence and making preliminary decisions as 
to whether incidents are suitable for prosecution. This would require a 
team of FBI agents with appropriate training, including access to 
forensic labs and personnel.
    (2) The case when first alleged seems to have been treated as an 
issue related to administration of a contract, rather than a criminal 
justice matter, triggering only a State Department investigation. But 
the State Department does not have authority to conduct criminal 
inquiries or to bring charges.
    (3) The Department of Defense was called upon to provide medical 
expertise, which was a reasonable step. But no guidelines appear to 
have been available as to how this was done. The alleged surrender of 
the rape kit by military medical personnel to Kellogg Brown & Root was 
grossly improper, producing a serious lapse in the chain of custody--
and in this case, loss of evidence which cannot be reproduced. It 
reflects an attitude which I hear constantly when interviewing State 
Department and Defense Department personnel--namely, that the problem 
is the contractor's. Of course, the contractor has an interest in 
performing its contract and maintaining a good relationship with the 
contracting agency. The contractor does not have any interest per se in 
law enforcement. It might well decide to terminate employees it 
believes are involved in a crime, but beyond that the contractor will, 
very appropriately, believe that the responsibility for law enforcement 
lies with law enforcement agencies.
    On December 5, the Department of State and the Department of 
Defense, represented through the able Deputy Secretaries Negroponte and 
Gordon, entered into a Memorandum of Agreement which sets out 
guidelines for cooperation in some investigations. When I first 
received and examined this document, I was convinced I must have been 
missing several pages. The most extraordinary thing about it is in fact 
what it does not cover. Remember, this process started in the wake of 
the Nisoor Square incident on September 16, in which private security 
contractors working for Blackwater Worldwide opened fire in the Nisoor 
Square neighborhood of Baghdad, leaving 17 civilians dead and severely 
wounding 24 more. The confusion, defensiveness, multiplicity of 
uncoordinated, ad hoc investigations, and inter-agency finger-pointing 
that characterized the U.S. government response to the shootings 
highlight the fact that the U.S. Government at this late date still had 
no plan or procedure for investigating allegations of serious violent 
crime involving private contractors fielded by the U.S. government in 
Iraq.
    The Defense Department and the State Department got into a bit of a 
squabble over these investigations, a turf battle if you will. The 
Memorandum of Agreement was supposed to work out procedures for 
reconciling their differences. It actually contains a number of 
important advances. But there is one agency with clear primary 
responsibility for the investigation of criminal conduct and action 
thereon, and that agency--the Department of Justice--is nowhere to be 
found. It's not a party to the Agreement. In fact, while there is a 
fairly vague reference to ``appropriate'' law enforcement agencies, the 
Justice Department isn't even mentioned.
    With respect to the Nisoor Square incident itself, the first 
Justice Department investigators appeared two weeks after it was first 
reported, published above the fold in newspapers around the United 
States. It made its appearance only after a public spotlight was 
focused on it, and demands were made by editorial boards and members of 
Congress for it to account for its inaction.
    I wish this had been a unique course of events. But it seemed to me 
completely typical. We should also look back to the first reports out 
of Abu Ghraib. Remember that the Report authored by Generals Kern, 
Jones and Fay identified six contractors, and General Taguba linked two 
of them to the most serious abuses that occurred at Abu Ghraib. These 
matters were referred to the Department of Justice, and on to the 
Eastern District of Virginia in 2004. At the point of referral they had 
been fully investigated by the Army's Criminal Investigations 
Department, with a full dossier supporting prosecution. That same set 
of investigations fueled more than a dozen courts-martial and even more 
nonjudicial punishments. On the military side, the process may be 
subject to some criticisms, but at least there was a process that moved 
forward and resulted in criminal prosecutions and serious sanctions.
    And what about the Abu Ghraib cases involving contractors that were 
passed to the Department of Justice? Though there is a single newspaper 
report of a grand jury meeting at which questions were asked about 
these cases, there is no sign of any meaningful prosecutorial action--
not even of efforts to interview victims and key witnesses. The Eastern 
District of Virginia has a reputation for acting quickly and 
skillfully. It has in the past years handled some of the highest 
profile cases in the country. The contrast between those cases and its 
handling of the cases from Abu Ghraib is nothing short of stunning. And 
the explanations that have been offered simply do not hold water.
    There has not been a single completed prosecution of a crime 
involving a contractor implicated in violent crime coming out of Iraq, 
although the reported incidents which would have merited investigation 
are legion. Again, it is simply impossible to believe that in a 
community with a peak population of 180,000 people--with many more 
people than that actually cycling in and out of these jobs, tens of 
thousands of them Americans--over a period of approaching five years 
there has been no violent crime. The facts point to something else: an 
attitude of official indifference within the Department of Justice, or 
at least a decision to accord these crimes a very low priority and no 
or very little resources.
    Looking back quickly to the two questions I started with:
    The developments at Nisoor Square and the tragedy experienced by 
Ms. Jones show that the legislation that Congressman Price proposed is 
badly needed. Congressman Price's bill, as enacted by the House, 
requires the Justice Department to allocate the personnel and resources 
needed to address criminal allegations involving contractors. These 
cases reveal that as an urgent necessity. The Price bill also 
strengthens the Justice Department's jurisdictional basis for action 
which would help avoid unproductive litigation over the scope of the 
Congressional grant of jurisdiction.
    The Jones case, and the Nisoor Square case point to a failure by 
the Justice Department to provide appropriate resources to address law 
enforcement within the contractor community in Iraq. There is an urgent 
need to have investigators, prosecutors and trained support personnel 
on the ground in Iraq. Back in Washington there should be a staff of 
experienced trial attorneys with depth in relevant criminal law and the 
law of armed conflict who can support prosecutions. The Criminal 
Division needs to be given an explicit mandate to cover this area, and 
dedicated funding, resources and personnel to do so. The fact that such 
resources are missing has clearly contributed to the failure to act in 
a timely and appropriate manner in the Nisoor Square event, in the case 
that Ms. Jones has described, and in many other incidents as well. It 
has damaged our nation's reputation for doing justice.
    I look forward to your questions.

    Mr. Scott. Thank you. Thank you, Professor.
    We will now have questions from the panel, and I will 
recognize myself for 5 minutes and begin with Ms. Jones.
    Are you aware of other cases of sexual assaults during your 
time in Iraq?
    Ms. Jones. I am aware of several other cases, yes.
    Mr. Scott. And do you know if any of them have been 
investigated by criminal law authorities?
    Ms. Jones. Everyone that has came to me through my 
foundation don't know where to turn to for the criminal 
prosecution. And that is why I asked the assistant United 
States attorney where I should refer the victims to, Mr. 
Chairman.
    Mr. Scott. And do you know whether any of them have been 
investigated?
    Ms. Jones. Not to my knowledge, Mr. Chairman.
    Mr. Scott. Congressman Poe, when you called the Department 
of State, did they give you any response to the allegations? 
Did they admit it, deny it?
    Mr. Poe. The initial call was made and told them what had 
occurred, and our biggest concern at that point was getting 
Jamie in a safe environment.
    And so there were no comments--the first, obviously, they 
had seemed to have heard of any of this is when we called the 
State Department.
    Mr. Scott. And did you call the Department of Justice as 
well as the Department of State?
    Mr. Poe. We contacted the Department of State first. Later, 
in the last 2 years, the Justice Department had been contacted 
by my office. But we have not received any response from either 
one.
    Mr. Scott. Say that again.
    Mr. Poe. We haven't received any response from the State 
Department or the Justice Department.
    Mr. Scott. Professor Horton, you indicated that the--in 
this case there seems to be no question about Federal 
jurisdiction over the crimes because KBR was a Department of 
Defense contractor.
    We are trying to make sure that is the same case for other 
contractors of the Department of State or some other--
Department of Interior, or whatever.
    Since it is covered, who in the Federal Government should 
be--is responsible for the investigation and prosecution?
    Mr. Horton. Well, let me start by noting Judge Gohmert, I 
think, pointed out quite correctly there are still some open 
questions here, of course, and we don't know who all the 
perpetrators were.
    So of course, there could be some question with respect to 
some of the perpetrators. If those individuals aren't in the 
theater in the context of a contract supporting the Department 
of Defense, that would be an issue.
    But the core events that occurred clearly are within the 
jurisdictional grant of the MEJA. So what does that mean? That 
means that the Department of Justice had the power and the 
responsibility to conduct the preliminary investigation in the 
theater and to handle it from that point forward.
    And I would point out something else that I noted in my 
written remarks here. That is on December 5th, there was a 
memorandum of understanding reached between the Department of 
Defense and the Department of State about conducting 
investigations. That is the thrust of your questions.
    You know, I got this agreement recently. I read it. I 
thought I was missing some pages, because the Department of 
Justice does not appear anywhere in the document.
    Not only are they not a party involved, asserting their 
prerogatives and their powers in connection with the 
investigations--and they are the paramount authority for this 
purpose--they are not even referred to in the agreement. They 
are AWOL.
    Mr. Scott. We have talked about the mandatory arbitration 
clause in her employment agreement. Is there any appeal from a 
mandatory arbitration decision?
    Mr. Horton. I have to say that is beyond my field of 
expertise.
    Mr. Scott. Okay. And finally, do you know anything about 
other incidences that have not been investigated?
    Mr. Horton. Well, I have interviewed a number of individual 
contractors who described being victims of assault, involved 
contract--rather, fiscal contract issues and so forth, who 
described only a process of internal investigation with no 
government oversight investigation in these cases.
    So I guess I am aware of some other instances--not as 
serious as these, however.
    Mr. Scott. You mean the contractor doing the investigation 
and not criminal authorities doing the investigation?
    Mr. Horton. That is correct.
    Mr. Scott. Thank you.
    The gentleman from Texas?
    Mr. Gohmert. Thank you, Mr. Chairman.
    And to follow up, Professor, on some of the Chairman's 
questions, MEJA does seem to leave some questions, and so I 
want to ask specifically your opinion on whether part of this 
offense fell in cracks within the MEJA existing at the time of 
the alleged incident.
    When I say alleged, I believe there was an incident.
    Mr. Horton. Again, I think the core of this incident 
certainly would be covered by the MEJA.
    What I am concerned about is when we get the--when we 
finally discover, if we do finally discover, who all the 
perpetrators are, if it turns out that some of those 
perpetrators are not in country in connection with a contract 
serving the Department of Defense, then they would be outside 
the territorial grant of the MEJA.
    I think this is one of the reasons why it is really in the 
interests of justice here to have a far broader, more expansive 
grant of jurisdiction to the Department of Justice so they pick 
up all those cases.
    I mean, it certainly would be an inefficient use of the law 
enforcement resources of the United States not to be able to 
join all the perpetrators in this case.
    Mr. Gohmert. Well, you had said that the DOJ had 
responsibility for investigating. I was in the Army 4 years and 
familiar with their military justice.
    It would seem, though, that when there is an immediate 
problem in a DOD theater that there should be DOD investigators 
immediately step in, whether there is DOJ on the scene or not. 
Would you agree with that?
    Mr. Horton. Absolutely.
    Mr. Gohmert. Because, I mean, there are some incredibly 
professional DOD investigators, detectives, well trained, good 
folks. It would seem that that would be the perfect people to 
come in, if it is support personnel for a DOD mission.
    Mr. Horton. I agree completely with that. You know, it 
seems to me that it would be reasonable to draw on the existing 
in-theater law enforcement expertise, and that would include 
the Criminal Investigation of the Department of the Army, 
medical sources and others.
    We would need, I think, someone with prosecutorial 
experience to supervise, and there are some gaps, of course, 
because the criminal justice system in our civilian courts, in 
our Article III courts, is different from the court martial 
system.
    So the CID frequently prepares evidence to different 
standards, so you would need to have a prosecutor who could 
supervise the process to be sure that we don't have any 
shortfall.
    One thing. There was a reference earlier to the Abu Ghraib 
cases. Now, those are cases, five cases, that were referred to 
the Eastern District of Virginia involving civilian contractors 
to Abu Ghraib.
    They were investigated by the CID. The portfolio and all 
the information was passed to the Eastern District of Virginia. 
There is no evidence, I see, of prosecutorial action.
    One thing I am concerned about is, you know, why does the 
Department of Justice feel that the CID investigation doesn't 
meet standards for Federal court prosecution for some reason? I 
mean, that would be a very----
    Mr. Gohmert. Well, basically----
    Mr. Horton [continuing]. Important fact to know.
    Mr. Gohmert [continuing]. You are probably aware they 
operate under the basic Federal rules. They kicked in back 
around 1980 for military justice courts.
    But if there is some question about jurisdiction of DOD or 
CID with the military coming in, investigating, we would 
welcome your input on how best to craft a fix to that 
legislatively to make sure that it is taken care of.
    Ms. Jones, I would like to ask, what specific thing do you 
think we could put into law that would have allowed you 
immediate help once something like this occurred?
    Ms. Jones. First of all, I think that if there was a 
standard procedure in place such as, you know, if someone is 
referred to the Halliburton clinic, then the Halliburton clinic 
should contact, like, FBI or whoever you all think needs to 
investigate it, because the KBR security coordinator--there is 
no way that that would come within the scope of their 
employment, I wouldn't think.
    Mr. Gohmert. Did they have a rape kit readily accessible, 
or was that something that took a while for them to get a hold 
of?
    Ms. Jones. I am not sure. I was taken to the Army hospital 
where the rape kit was----
    Mr. Gohmert. Okay.
    Ms. Jones [continuing]. Administered, but the Army doctor 
did hand over the rape kit to KBR security.
    I think that if this would have happened in the states, the 
rape kit would have been handed over to, say, a police officer, 
and there would be a chain of command. Like if the rape kit was 
handed to one person, to another, it would be, you know, 
written out----
    Mr. Gohmert. Certainly.
    Ms. Jones [continuing]. That it changed hands.
    Mr. Gohmert. Well, and normally the military understands 
that and they are very good about that. That is why I am very 
concerned about this lapse in judgment and actually in protocol 
for how you handle these things.
    Like I know Judge Poe saw repeatedly as a judge, they had 
those same procedures in the military, and it is really 
shocking that that wasn't followed here either.
    But I see my red light is on, and so thank you, Mr. 
Chairman.
    Mr. Scott. Thank you.
    The gentleman's time has expired.
    The gentleman from Michigan, the Chairman of the full 
Committee?
    Mr. Conyers. Thank you, Mr. Chairman.
    What a hearing. We are asking a victim about the laws and 
the Criminal Investigation Division.
    I am going to call the attorney general, Mukasey, who 
started out--it was going to be a new, clean deal, we are going 
to pull this thing back together.
    And you know, I am embarrassed that the Department of 
Justice can't even come forward. I want him to start talking 
about these questions that we are asking the witness.
    Are they coordinating? Is the Criminal Investigation 
Division working carefully? They are real efficient. Yeah, real 
efficient. I am going to call the secretary of defense, too, 
Gates.
    We are acting like this is a case of first impression, that 
this is very difficult, complex stuff we are working on here.
    And we have got tens of thousands of people over there. 
Goodness knows how many people have preceded Ms. Jones in this 
kind of tragedy.
    And we are acting like this is something very heavy--we are 
judges, we are lawyers, we are professors. And this is an 
absolute disgrace.
    The least we could do is have people from the Department of 
Justice and defense over here talking about how we are going to 
straighten out the system right away. You don't even need a 
hearing to do that.
    They should have responded to Congressman Poe immediately 
and said, ``Let's clean this up right away.'' Did they do that? 
No. They are stiffing him. They are stiffing all the Jamie 
Joneses that have come and gone before. And they are stiffing 
us right now.
    And as one who encourages and works on the bipartisanship 
of the Judiciary Committee--and that has been my goal since I 
took over in January of this Committee--I am so pained by this 
big-deal complex law coordination expert investigators and all 
that, and nothing is happening.
    And so I am going to hope that we can do this without 
having to have countless numbers of hearings where we keep 
repeating the same thing. We are all in agreement that this is 
a mess that has got to be straightened up right away.
    And I am really ashamed as someone who has been in the 
service 3.5 years and served in Korea. And I know what it is 
like being over there.
    Ms. Jones, it was a great idea for the foundation. Tell us 
a little bit about it.
    Ms. Jones. I had to do it. I had to do it for other 
victims. I want to have the resources readily available at 
people's fingertips who are going through this. I mean, there 
has to be a resource that is a refuge for victims.
    And if I couldn't find out where to go--I tried through the 
assistant United States attorney--then perhaps I could help 
them at least find therapists, doctors, whatever I could do.
    Mr. Conyers. Well, that is so courageous. You know, as you 
know, this could break up, you know, a normal person. You are 
tough. You are patriotic.
    And I am just so proud that thanks to you and Congressman 
Poe, we are going to turn this thing around. You can bank on 
that.
    Mr. Scott. Thank you, Mr. Conyers.
    The gentleman from California, Mr. Lungren?
    Mr. Lungren. Thank you very much, Mr. Chairman.
    This is a very difficult hearing. If one of my four sisters 
or my two daughters that are younger than you, Ms. Jones, had 
undergone this, I am not sure I could control my rage.
    We have all seen that the first obligation of government, 
in my judgment, internationally is to provide for the common 
defense.
    Our first obligation domestically is to create a modicum of 
security and safety for our citizens so that they might be able 
to exercise their rights.
    Those two things shouldn't collide. And the fact that we 
are out fighting a war doesn't give us an excuse to forget the 
elements of our governmental structure and our criminal justice 
system. And I don't think I could add too much to what the 
professor has already said.
    I think you have analyzed the law. I think you have 
indicated what some of the problems are. I would echo the 
comments of our Chairman. This isn't rocket science. Any 
sophisticated law enforcement agency knows how to handle cases 
like this.
    Because you have a distribution of authority between the 
Department of Defense, the Department of State and the 
Department of Justice is not an excuse that they can't get it 
together.
    Every law enforcement agency of which I am aware works with 
other law enforcement agencies and other governmental 
structures. And if you think it is important, you establish a 
protocol and you work these things.
    We had testimony here by the Department of Justice, by the 
FBI, as to what their priorities are. We know they have given, 
for instance, tremendous number of new agents and attorneys to 
look at public corruption.
    I mean, they talk about that all the time. They talk about 
it as one of the four keystone things that they do. I have 
never heard them talk about this. I am outraged by this. I 
don't have any answer as to why this should happen.
    Ms. Jones, you are owed an apology by the government the 
way this was handled. Look, I know there are some great people 
that work at Halliburton and KBR. I am sure you would say that 
as well.
    I would probably bet that the vast majority of them are 
wonderful, patriotic people. But when you have got some bad 
apples, someone has got to do something about it.
    And most of our men and women who are working overseas to 
defend this country are great patriots, but there are among 
them the bad guys. And we should not allow them to hide behind 
bureaucratic inaction or, worse, such fear of bureaucratic 
inaction being revealed that somehow you don't act and you 
cover things up.
    I think all of us on a bipartisan basis would join in the 
words of the Chairman that we need to get to the bottom of 
this, that this is not a partisan issue, that I certainly grant 
our new attorney general the benefit of the doubt.
    I am going to presume that he personally is not aware of 
this and that personally he did not make the decision not to 
have someone, at least someone, here and testify as to the 
procedures and the processes.
    But we will work together on this, because this is totally, 
totally unacceptable.
    Mr. Conyers. Would the gentleman yield?
    Mr. Lungren. I would be happy to yield.
    Mr. Conyers. I just want to thank him for his continued 
cooperation that I have enjoyed on the Committee this year, and 
I just want to applaud his perceptions of this problem.
    Thank you.
    Mr. Lungren. Well, I thank you.
    Ms. Jones, did anyone ever explain to you what was going to 
be done with the rape kit, number one?
    And number two, has there been any effort to give you an 
explanation of what has happened to it since that time?
    Ms. Jones. The only thing that I was told by State 
Department agents is that the pictures and doctor's notes are 
still missing.
    Mr. Lungren. See, this is an absolute outrage. Anybody who 
has ever been involved in prosecuting sexual assault cases 
understands the importance of a rape kit, understands the 
importance of maintaining evidence, understands the idea of 
chain of custody, understands you can undercut those cases if 
you let any of those things fall through the cracks.
    And this is--I don't understand how anybody could explain 
it, except to say that no one knew what they were doing, no one 
knew who was in charge, somehow yours was the first case of 
this type anybody had ever heard of so they couldn't figure out 
how to work it from an investigative and a follow up and a 
prosecutorial standpoint.
    And that is totally unacceptable.
    Ms. Jones. I agree.
    Mr. Lungren. Judge Poe, have you seen this in your 
experience as a judge on the state level in Texas?
    Mr. Poe. No. After 22 years, I have never seen a case where 
the doctor takes a rape kit, does it correctly, and gives it to 
the perpetrator.
    Mr. Lungren. I mean, how many times have we been told the 
feds know how to do it and we don't know how to do it on the 
state level? I mean, we ran----
    Mr. Poe. We hear that a lot.
    Mr. Lungren [continuing]. Into that all the time when we 
were in the criminal justice system in our respective states. 
There is no excuse for this.
    Do you have any opinion as to why this could happen, how 
this could happen?
    Mr. Poe. I don't know why it happened. It shouldn't. But 
you mentioned it. I think the protocol--no one knew who was in 
charge, who was responsible, who was supposed to follow up, 
which--of course, it is our Justice Department.
    Mr. Lungren. This sounds like the way we handled sexual 
assault cases 50 years ago, you know?
    Mr. Poe. It does.
    Mr. Lungren. Where the victim was the last person thought 
of, where we didn't know what to do with the evidence, where we 
didn't realize how important it was to preserve the evidence, 
where we let the perpetrator sort of get away because we 
weren't doing it on a timely basis--I mean, this is about as 
bad a foul-up as I have seen.
    And I apologize to you on behalf of the Federal 
Government----
    Ms. Jones. Thank you.
    Mr. Lungren [continuing]. Ms. Jones. This should not happen 
to you. It should not happen to anybody else similarly 
situated.
    And how do we attract young people who are patriotic, as 
you are, to do the service to our country that is necessary? 
You were willing to go to a combat zone.
    We saw the reaction we had from some of the people in the 
State Department just a couple weeks ago, or a month ago, when 
the secretary of state suggested they needed to be out there 
doing stuff.
    I mean, you have been doing it, and this is the thanks you 
get. There is something rotten in Denmark, and we had better 
take of it.
    Mr. Scott. The gentleman's time has expired. Thank you.
    The gentleman from Georgia, Mr. Johnson?
    Mr. Johnson. Thank you, Mr. Chairman.
    In watching the news last night, I saw--or heard; I was 
washing dishes during that time--a report--yes, I do wash 
dishes--and heard a report of a homicide on a military base on 
Fairfax County, Virginia that had occurred on Monday.
    And the report went on to say that the FBI has taken over 
the case and was investigating this homicide to determine 
whether or not any foul play that was involved in it.
    And something of that--a simple procedure like that was 
called for in this case, even though it occurred in the Green 
Zone in Iraq, a place where we had invaded, destroyed the 
infrastructure, then put in our own systems of justice over 
there, of maintaining law and order, especially in the Green 
Zone.
    And so I know that there are some--or I know that at the 
time that the incident occurred, Ms. Jones, that there was law 
enforcement available, a neutral law enforcement available, in 
the Green Zone to protect persons who were crime victims.
    And that system failed you. In fact, there are strong 
implications that perhaps that system and your private 
employer, Halliburton, the owner of KBR, which is a wholly-
owned subsidiary--perhaps there was some unholy alliance 
between the law enforcement at that facility and your private 
employer, and that operated to deprive you of your right to 
justice under the criminal law up to this point.
    And with the state of the evidence, I am not sure whether 
or not it will be feasible to move forward with a criminal 
case, but certainly you having come back to the United States 
of America, you would seek to establish justice in the civil 
courts.
    And you have been met with resistance in doing that because 
of this mandatory binding arbitration clause in the agreement 
that you signed with Halliburton in connection with your 
employment, is that correct?
    Ms. Jones. Yes, and I wanted to go and get a--do away with 
the arbitration in my case because I want justice, and I want 
to contribute every penny to the Jamie Leigh Foundation, to put 
it back and help other victims, and do everything that I can in 
my power to help victims of violent crime.
    Mr. Johnson. Well, let me tell you, I have got a daughter 
who is 18 years old, not much younger than you. I think you 
are, what, 22 at this time?
    Ms. Jones. I just turned 23.
    Mr. Johnson. Twenty-three.
    Ms. Jones. Yes, on the 13th.
    Mr. Johnson. And I will say that if something like this 
would have happened to my daughter, I, like all of the others 
sitting on this podium, would--it is impossible to say how one 
would react until one is faced with some dilemma like this, and 
it could actually tear apart the family.
    And I am so happy that you are here with your family today, 
your father, your mother and your husband, who has stuck with 
you throughout this trial and tribulation. And so my hat goes 
off to that family support that you have.
    And I am proud of you for the stance that you have taken, 
and I know that they are very proud of you as well.
    Ms. Jones. Thank you.
    Mr. Johnson. You were 19 years old or so when you signed 
this employment agreement with Halliburton?
    Ms. Jones. I think I was 19--I think I had just turned 20.
    Mr. Johnson. Did you have a lawyer present to explain to 
you what was in that agreement?
    Ms. Jones. No, sir.
    Mr. Johnson. And did you have any idea of knowing anything 
about the so-called Halliburton dispute resolution program that 
was alluded to in that contract?
    Ms. Jones. I didn't see that it was alluded in the 
contract.
    Mr. Johnson. Yes. Well, now, the contract did mention about 
mandatory binding arbitration for any employment disputes. Were 
you aware of that when you signed?
    Ms. Jones. No, it was 18 pages long, and it was in verbiage 
at the time that I, quite frankly, did not understand. If you 
would have asked me at 20 years old what an arbitration was, I 
would not have been able to tell you.
    Mr. Johnson. And, Congressman Poe, according to an analysis 
by the National Employment Lawyers Association based on the 
American Arbitration Association's public reports from January 
1st, 2003 to March 31st of 2007 of the arbitration decisions 
involving Halliburton, the Triple A arbitrators, who are the 
lead arbitrators in this case, found for Halliburton 82 percent 
of the time. Do you find that number disturbing?
    Mr. Poe. Well, it is hard to understand that somebody could 
be correct 82 percent of the time in these type of disputes. It 
is somewhat disturbing.
    On arbitration, it just seems like it ought to be, in a 
case like this, optional. And it certainly shouldn't apply to 
criminal activity.
    Mr. Johnson. Why do you think a public hearing, in a public 
courtroom, with a judge paid for with public funds, charged 
with being fair and impartial, is so important in resolving 
disputes of any nature?
    Mr. Poe. Oh, I am a great believer in the jury trial. I 
just think it is one of the greatest things we have in our 
judicial system, whether it is a civil case or a criminal case. 
I heard over 1,000 jury trials.
    And so I think the public courtroom and our philosophy in 
the Constitution is fundamental. And so I am a great believer 
in it.
    It seems to work because it is public, and you have the 
jury, and you have the judge, and you have both sides, and you 
are making your case--the lawyers are making their case before 
a public forum. So I am a believer in that.
    Mr. Johnson. And on the other hand, an arbitration 
proceeding is secret. Rules of evidence, rules of procedure, 
don't apply. And an appeal is limited. So having said that, I 
will close my comments at this time.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you, and I thank the gentleman for his 
comments.
    The gentleman from North Carolina?
    Mr. Coble. Thank you, Mr. Chairman.
    Mr. Chairman and Mr. Ranking Member, a very distinguished 
panel today.
    We appreciate you all being here, but particularly you, Ms. 
Jones.
    Ms. Jones. Thank you.
    Mr. Coble. Ms. Jones, how long after the assault was the 
medical examination performed?
    Ms. Jones. The next morning.
    Mr. Coble. By a physician?
    Ms. Jones. Yes, by an Army medical doctor.
    Mr. Coble. And did he question you in any way about the 
facts surrounding the assault or just restricted to the medical 
exam?
    Ms. Jones. It was a medical exam.
    Mr. Coble. Do you know, Ms. Jones, whether there were 
witnesses to the assault?
    Ms. Jones. To the assault?
    Mr. Coble. Yes.
    Ms. Jones. The perpetrators that did this to me would be 
witnesses.
    Mr. Coble. And you know their identities, I presume.
    Ms. Jones. We know one by name.
    Mr. Coble. Okay. Did you remain employed after the assault 
with KBR?
    Ms. Jones. No.
    Mr. Coble. Well, let me put my oar in these waters. Did you 
have reason to believe that if you reported it that your job 
might be in jeopardy? Did that ever cross your mind?
    Ms. Jones. Yes, when I was imprisoned in a--locked in a 
shipping container with two armed guards not letting me outside 
of my door, then I think that I was very aware that my job was 
in jeopardy.
    They did not want me to come out because--it was not to 
protect me. It was to protect them.
    Mr. Coble. Yes.
    Professor, in your opinion, is there a constitutional line 
in the sand as to how far the Congress can extend Federal 
criminal jurisdiction to conduct overseas, A?
    And B, in your opinion, does H.R. 2740 stay on the right or 
the appropriate side of that line?
    Mr. Horton. There definitely are some limits to the 
extension of extraterritorial criminal jurisdiction.
    Here, there is a special hook because of the power of the 
Congress to define criminal law jurisdiction in connection with 
hostilities overseas, so it would come under the clause that 
grants you the right to define the law of nations.
    And there, a country that sends a force into the field--
that could include both uniformed military and contractors--has 
the power and the right to enforce criminal law with respect to 
that force that is deployed wherever they are deployed.
    So it seems to me quite clear that the legislation that was 
recently enacted--or recently passed by the House--is well 
within the constitutional grant of jurisdiction to the extent 
it is tied to a contingency operation that is occurring 
overseas.
    Mr. Coble. Ms. Jones, as the distinguished gentleman from 
California said, many people owe you profound apologies, and I 
thank you very much for the courage you have shown in appearing 
here today.
    Ms. Jones. Thank you.
    Mr. Coble. Ted, Congressman, do you want to add anything 
before my red light illuminates?
    As the Chairman knows, I try to comply with that red light, 
Mr. Chairman.
    Mr. Poe. No, I think it has all been covered. But the 
comments from the panel regarding the apology by our 
government, I think, is well taken, well deserved to Jamie 
Leigh Jones and the other victims.
    Mr. Coble. Ms. Jones?
    Ms. Jones. And I really appreciate all of your apologies 
and I take them to heart.
    Mr. Coble. Thank you, Professor.
    Good to have all of you with us.
    Mr. Chairman, I yield back.
    Mr. Scott. Thank you, Mr. Coble.
    The gentlelady from Wisconsin?
    Ms. Baldwin. Thank you, Mr. Chairman.
    I have to echo the frustrations that have been expressed by 
many, and I am sure are shared by the panel, that many of the 
Federal entities that we want to question about this aren't 
here, including, of course, the Department of Justice.
    And your testimony is providing us with very important 
information. And my question that will follow may elicit that 
this is much more widespread than we could even know.
    But the frustration of not being able to hold folks to 
account that need to be held to account is very aggravating.
    Ms. Jones, I wonder if, through your work with the Jamie 
Leigh Foundation, you might have an answer to this question. 
This past March there was an article in the New York Times 
titled ``The Women's War.''
    It was written by Sarah Corbett, and it detailed the 
experiences of about--well, 160,000 women soldiers who have 
been deployed to Iraq and Afghanistan. Corbett cites a 2003 
study that was financed by the Department of Defense.
    And in that study it was revealed that nearly one-third of 
a nationwide sample of female veterans seeking health care 
through the V.A. said that they had experienced rape or 
attempted rape during their time of service.
    Of that group, 37 percent said that they were raped 
multiple times and 14 percent said that they were gang-raped. 
What I am wondering is if we know whether these absolutely 
stunning statistics would apply also to women contractors 
serving in Iraq.
    Are there statistics on sexual assault of women contractors 
abroad? Are any similar studies available that you know of on 
the experiences of women contractors?
    Ms. Jones. Not to my knowledge, but so far there are so 
many women coming forward I can't even count them. And there 
hasn't been a woman once come to the Jamie Leigh Foundation and 
state that nothing has happened to them.
    All the women that have come to my foundation have a story, 
and a significant story, and they all deserve their day in 
criminal court. And you know, their letters--you know, they 
make me cry, and that is why I am here today, not just for 
myself, but for these women that deserve justice.
    Ms. Baldwin. I know that partially in response to these 
studies that the U.S. military has worked to become more 
sensitive to women, and they now have regular mandated 
workshops on preventing sexual harassment and assault.
    I am wondering whether there are similar educational 
programs for U.S. government contractors.
    And in particular, in your experience, Ms. Jones, did you 
learn about the topics of sexual harassment or preventing 
sexual assault in any of the training that you might have 
received before you left for Iraq? And did you receive any 
training before you left for Iraq?
    Ms. Jones. The only thing that they told women to be aware 
of was insurgency. They never once trained us about how to 
maintain an environment in the workplace free of sexual 
harassment and assault.
    I applaud the military. My husband is in the Navy, and he 
brings home booklets full of stuff about how to behave in a 
military environment, what to do, what not to do in regards to 
women, and men, in that matter.
    If Halliburton maybe would take the time and do the--maybe 
even the exact same thing the military does, because they are 
working among the military personnel, I think that that would 
be absolutely wonderful. But they didn't.
    Ms. Baldwin. Thank you again for your testimony.
    Mr. Scott. Thank you.
    The gentleman from Alabama, Mr. Davis?
    Mr. Davis. Thank you, Mr. Chairman.
    Ms. Jones, let me echo everyone today who has thanked you 
and complimented you for your courage.
    Ms. Jones. Thanks.
    Mr. Davis. Someone who was once very close to me, a young 
woman, experienced the same thing that you did. She was drugged 
and sexually assaulted against her will, and I still remember 
her telling me in some detail about it.
    She was unwilling to report her crime because she felt that 
people wouldn't believe her version of what happened. And all 
too many women realize that is what happens in so many of these 
cases.
    You walk in, you tell what someone did to you, and you are 
the person who falls under the critical microscope. You are the 
person who is doubted at every turn.
    So thank you for having the courage to come forward. 
Hopefully it will inspire other women to do the same.
    Let me say this much about the substance of this matter. I 
think there are two wrongs here. One of them has to do with the 
complete inattention of the element of the U.S. government that 
is charged with prosecuting criminal laws.
    Mr. Horton, or Professor Horton, I noticed a very 
interesting sentence in your opening statement, ``There has not 
been a single completed prosecution of a crime involving a 
contractor implicated in violent crime coming out of Iraq, 
although the reported incidents which would have merited 
investigation are legion.''
    This is how I translate that: There is essentially a 
protection-free zone in Baghdad if you work for an American 
contractor. And I am sure that the Halliburtons of the world 
have figured that out by now.
    I suspect that one of the reasons why civilians who are 
working for your company or your former company and others are 
mistreated and subjected to criminal activity and to tortious 
activity is, in part, because a lot of the wrongdoers know very 
well that they are not going to be prosecuted, because they 
know very well that the government is not going to be 
interested in going after them for their misconduct.
    Would you agree with that, Ms. Jones, that there is some 
perception on the part of some of these contractors that they 
will not be prosecuted?
    Ms. Jones. I absolutely agree with it. I mean, so many 
women are coming forward with similar events that have occurred 
that have occurred to me. I mean, obviously, they know that 
they can get away with it.
    Mr. Davis. And I will echo Mr. Lungren's comment that I 
struggle to understand the priorities of the Department of 
Justice under the best of circumstances.
    If you had been a Democratic politician in Alabama and 
someone said something about you, they would have been all over 
that like white on rice. But a young women saying that she was 
raped obviously did not produce the same level of attention.
    And based on the absence of prosecutions in any single case 
coming out of Iraq, again, I am stunned by the comparison.
    If you were in Greene County, Alabama, and someone said you 
were trying to manufacture absentee ballots, it would have 
attracted an enormous amount of interest.
    There is another wrong here, though, and Mr. Johnson or 
Congressman Johnson touched on it. This is exactly the kind of 
case where arbitration clauses should not be applicable.
    Now, if somebody is saying my cable T.V. company charged me 
too much money, maybe there ought to be binding arbitration 
there. If someone is saying I am trying to get 2 months' extra 
leave and they are saying I should get 29 days extra leave, 
maybe that is a place for arbitration.
    But when someone is alleging a serious tortious assault, 
that ought to be determined--liability, in my mind, ought to be 
determined in a court of law. It ought to be determined by a 
jury of one's peers.
    You ought to have a chance to look your accusers in the eye 
and to make your claim and to recover damages, and a jury ought 
to decide that, not one individual sitting somewhere who may or 
may not be disposed to be sympathetic to your circumstances.
    And I will make this my last comment. It speaks to a 
broader point. There are too many mandatory arbitration clauses 
that have worked their way into the fabric of the employment 
world. They are too excessive.
    Most people, like you, Ms. Jones--they don't read that 
stuff. When you get hired, you want to know when do I start. 
You don't do the fine print on a mandatory arbitration clause. 
You don't go out and get a lawyer to interpret it to you. There 
are too many of these things.
    And one of the things, Mr. Chairman, that I hope this 
Committee will do over the course of the next year is to do a 
more searching scrutiny of these clauses and to figure out what 
we can do to uproot some of them.
    My final 30 seconds--I have a bill that I have introduced 
which deals with former Guard and reservists who are coming 
back home to work at their old company and who are being 
terminated because they served their country.
    They go back to work for a store or a company and they are 
fired because they missed too much time serving their country. 
A lot of those individuals don't get a chance to go to court 
because of binding mandatory arbitration clauses. My bill would 
eliminate the clauses in those cases.
    Thank you again for your courage, Ms. Jones.
    Ms. Jones. Thank you.
    Mr. Scott. Thank you, Mr. Davis.
    Ms. Jackson Lee?
    Ms. Jackson Lee. I started my comments this morning, Ms. 
Jones--and you are from Texas, so there is a bond here that I 
hope you realize is in truth and honesty--that, in fact, you 
represent voices that cannot be heard.
    And I want to reaffirm the fact--and I thank your father 
and mother, lawyers, your husband, the other victims that are 
here--thank you for your service to this country. Thank you for 
your commitment and bravery to this country.
    And I hope that Congressman Poe and myself and the Members 
of this Committee can work together, because we would like to 
hear from those who are not at the table.
    Your foundation has generated names and if they are 
desiring of those names to be public, I would like to work with 
you.
    Ms. Jones. Okay.
    Ms. Jackson Lee. Because as I indicated, I gave you the 
small story of a young woman who was on the way where you had 
gone, and she was very proud. She was going to be gone a year. 
And I think of her even today, because she is heading out as we 
speak.
    And so it is imperative that we take up a number of the 
issues that my colleagues have said, and I would like to pose 
them with you using Professor Horton's very astonishing fact 
and raise some questions with you on that.
    I do want to go to Congressman Poe again, Congressman, 
because I want to know, did you separately deal with 
Halliburton and KBR? We have been using Halliburton, and I know 
that in my absence maybe KBR was mentioned.
    But let us be very clear of the two entities or the 
entities together, but, in fact, the culpability of these 
companies falls where?
    Did you reach out to both? Did you find that they were 
separated at the time? Are they not separated? What did you 
find out in your fact finding?
    Ms. Jones. Well, I remember when my Grandma asked me who I 
was going to go work for overseas, the only answer that I knew 
to say was Halliburton.
    Ms. Jackson Lee. And clearly, as the war started, you were 
correct to be saying that. And so I understand that in terms of 
your perception.
    I want to ask Congressman Poe who he reached out to and 
what did he find out.
    Mr. Poe. We started with the State Department; expected, as 
we were informed, that the State Department would follow up on 
all the prosecutions.
    We did not deal with KBR or Halliburton. My understanding 
is they are not the same entity anymore. But this is a criminal 
investigation that we expected the Justice Department, who 
isn't here, to follow up on and prosecute.
    So we didn't deal with either entity at all.
    Ms. Jackson Lee. Well, I think the point should be made you 
had a life and death situation to deal with, and you needed to 
rescue someone. And clearly, your task was completed--that is, 
to save her life and get her out of there.
    And so let me--and I appreciate that. And the reason why I 
mentioned that is because you are right. I think the Department 
of Justice owes us its duty to investigate and to determine who 
the culprits are and to have those particular entities, 
corporate and otherwise, prosecuted to the fullest of the law.
    And those companies have a responsibility to come forward, 
to shine the light on, to stand up and indicate here is our 
corporate structure, here is who was here, here is who was not 
here, so that, in essence, the investigation can go forward.
    My colleague, Mr. Weiner, said it is a shame that American 
tax dollars would be used to commit criminal activity, violent 
criminal activity. What American would say send my tax dollars 
to make sure that someone is criminalized?
    So let me proceed, Mr. Horton, to the outrage of your 
astonishing fact and suggest that legislation needs to be in 
place. And I have not looked at the legislation recently that 
we have moving through this Congress.
    That is, the failure of an appropriate law enforcement 
authority to conduct a prompt and timely investigation of the 
allegations while Ms. Jones was still in theater. The facts 
should note that Ms. Jones was held without her permission. She 
was not given food or water.
    And can you believe that we believe that we have funded FBI 
agents on the ground in theater and we did not have an 
investigation on the ground? We did not have the FBI come there 
and say where is the rape kit, where is this doctor, what 
hospital, where is the scene, let us take pictures of the place 
where she was incarcerated.
    Can you believe that did not happen? Professor Horton, what 
do we need to do about this?
    Mr. Horton. Well, I think just start with some simple 
numbers. If we go and look at the U.S. embassy's Website for 
Baghdad, we will see that there are 200 Department of Justice 
employees in the Green Zone at the embassy.
    And out of that total, how many of them are dedicated to 
deal with questions of crimes involving contractors? Well, the 
answer, Congresswoman, appears to be zero. None. So it is a 
matter of incomprehensible resource allocation.
    I would just note another fact. Thirty-eight Department of 
Justice professionals--that is lawyers--were sent to Iraq to 
assist in setting up the international tribunal that tried 
Saddam Hussein and members of his regime.
    Ms. Jackson Lee. Say that number again. I am sorry.
    Mr. Horton. Thirty-eight lawyers were sent there to assist 
in connection with that tribunal, criminal justice process. 
Perfectly reasonable move. I don't question that.
    But to me, it is incomprehensible that we see that level of 
dedication to something which is, from our perspective, really 
a political act, not really a criminal justice matter, and we 
see no allocation of resources to deal with the crime situation 
within the contractor community.
    I think that is letting down our contractors, the employees 
there.
    Ms. Jackson Lee. In my 30 seconds of closing, to simply say 
that we should legislatively, then, establish this unit with 
the FBI personnel, with the Justice Department lawyers, and an 
in-theater investigation should ensure immediately protection 
of all the witnesses and the victim and, if necessary, to be 
tried in theater.
    With that, Mr. Chairman, I thank you and I look forward to 
working with this Committee to respond to this huge injustice.
    Thank you again for your service, Ms. Jones.
    Ms. Jones. Thank you.
    Mr. Scott. I thank the lady for her questions.
    And the recommendation of the investigatory unit is in the 
bill that we have passed. It is sitting over in the Senate. So 
we would hope that the Senate would take the bill up and pursue 
it.
    The gentleman from Texas?
    Mr. Gohmert. Thank you, Mr. Chairman.
    Just a couple of follow-up matters. The Chairman, for whom 
I have immense respect, had pointed out, you know, what a 
hearing and what a disgrace, and pointed out that we are asking 
the victim questions about the law.
    And what I found in my 3 years in Congress is that too 
often we don't ask the people most closely associated with 
problems what they see as a proper fix.
    And to me, this really is a heavyweight matter. As a judge, 
I saw where the state legislature made conflicting laws and as 
a result they gave technicalities for people to get off down 
the road. So I want to make sure we get this right.
    And if I could ask the professor a question about statute 
of limitations, because, Chairman, you had mentioned that, and 
a--brilliant, intuitive, right to the heart of it.
    Professor, as I understand it and recall from the military, 
there is a 5-year statute of limitations on an offense like 
this. I don't know if that would apply. Do you know what 
statute of limitations would apply here?
    Mr. Horton. That is something I would have to research and 
get back to you on. I don't know.
    But actually, raising the military point is another good 
point, because we haven't discussed in the course of this 
hearing the possibility of using the military criminal justice 
process to address it.
    That is also an option that is out there, the UCMJ. And its 
availability would turn on a number of facts, including who the 
perpetrators were.
    So obviously, if we had military personnel or reservists or 
others who are within the grant of jurisdiction in Article 2 of 
the UCMJ, that would be another possibility, and then we would 
get the 5-year statute of limitations.
    Mr. Gohmert. Because listening to this hearing, it does 
sound from both sides of the aisle that one of the problems 
that we keep coming back to is I don't think we have made clear 
who is in charge in this situation.
    And what I have seen also is that doctors--they are not 
criminal experts, so whoever appears to be in charge is the one 
they end up giving stuff to. They require somebody on the scene 
to tell them--and I hope that we can get that fixed.
    And I am concerned about the justice's non-appearance, as 
my colleagues are, but I was presented a letter that was sent 
by a Clinton administration--Attorney General Reno basically 
taking the same position that even when there is--we are going 
to be asked questions about procedure, if there is an open case 
that it might pertain to, then we don't want to come testify.
    And I really appreciated the Chairman stepping back here--
sometimes you wonder what we are talking about. The Chairman is 
trying to figure out a way we can get to the heart of it and 
really appreciate that.
    And I think a bipartisan letter where it doesn't matter 
which Administration, whether it is Clinton or Bush or whoever 
in the future--we ought to lay out some ground rules that we 
can agree with.
    Look, we are not going to ask you about a pending case that 
you can't answer, but you need to come forward. If the Justice 
Department doesn't come forward and tell us proper 
applicability of laws, then that whole side is not being 
represented, and we may make a mistake in prescribing the 
proper laws.
    So I would applaud, Chairman Conyers, your effort in doing 
that. We really ought to be able to lay out ground rules that 
can force the hand of any Administration's justice department 
to come before this Committee and explain their position on the 
laws, because when we get laws wrong, people suffer.
    And I applaud, Chairman Scott, your having this hearing and 
having it so quickly. And I hope we can get to a solution.
    Oh, and one other thing. I may be the only person that went 
through international arbitration testing for 3 days. And what 
I have seen is--my colleagues are exactly right.
    When it pertains to something this tortious, arbitration 
rules of evidence are far too lax to be the appropriate venue 
for something like this. So that may also be something we----
    Ms. Jackson Lee. Would the gentleman yield for a moment?
    Mr. Gohmert. Yes.
    Ms. Jackson Lee. I appreciate your comment on that. I just 
thought that possibly we could have a criteria that says if it 
is a criminal matter, then--that the provision that maybe an 
employee signs is waived, and that might be one element that we 
might consider as, you know, having arbitration but waiving it 
if it happens to be a criminal matter.
    Mr. Gohmert. Thank you.
    Ms. Jackson Lee. I yield back.
    Mr. Gohmert. I agree.
    And I yield back, Mr. Chairman. Thank you very much.
    Mr. Scott. Thank you.
    That legislation is pending now in another Subcommittee.
    I would like to thank the witnesses for your testimony 
today. Members may have additional questions for our witnesses 
which we will forward to you and ask that you respond as 
promptly as you can so they may be part of the record.
    Without objection, the hearing record will remain open for 
1 week for submission of additional materials.
    And I would recognize the Chairman of the Committee for a 
final comment.
    Mr. Conyers. Well, I thank everybody, but this has been 
helpful for all of us, and I thank particularly my Republican 
colleagues.
    I have talked to Lungren and Coble and Judge Gohmert, and 
we are going to communicate with the attorney general and the 
secretary of defense and work this thing out more quickly. I 
mean, we are all lawyers. We don't need to hold hearings on 
Criminal Law 101. And that is what we are here to expedite.
    The whole thing is not how many hearings can you hold. It 
is how can you make the law more efficient and make it work. 
And that is what this hearing has done in a great way, thanks 
to all of our witnesses.
    Ms. Jones. Thank you.
    Mr. Scott. Thank you.
    Finally, as the Chairman has indicated, notwithstanding the 
absence of Department of Justice officials today, we will get 
answers and, if not soon, we will have other additional 
hearings in which they will have an opportunity to explain 
themselves.
    In any event, Ms. Jones, we may need more research, but I 
think most of the people up here believe that the statute of 
limitations on all of the criminal offenses that have been 
alleged in your case extends into the next Administration.
    And so if this Administration will not investigate and 
prosecute, I am sure the next Administration will.
    With that, without objection, the Committee stands 
adjourned.
    [Whereupon, at 12:11 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Letter to the Honorable John Conyers, Jr., Chairman, Committee on the 
   Judiciary, from Brian A. Benczkowski, Principal Deputy Assistant 
  Attorney General, U.S. Department of Justice, Office of Legislative 
                                Affairs

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
